Mazuma Credit Union
7260 W. 135th Street
Overland Park, KS 66223
(913) 574-5000 - (888) 361-4194

Thank you for participating in the Sporting Blue Card Rewards Program. By participating in the
Rewards Program, you agree to be bound by the following Terms and Conditions, and all other
conditions, limitations and restrictions applicable to the Rewards Program.
As used in these Terms and Conditions document, “you” or “your” means the owners of the
Sporting Blue Visa Credit Card account, and “we” or “us” means Mazuma Credit Union.
TERMS AND CONDITIONS
You will earn Rewards Points by using your Sporting Blue Visa Credit Card for qualifying
purchases. Rewards Points will not be awarded for balance transfers, cash advances, finance
charges, convenience checks, returned services or goods, fraudulent or unauthorized
transactions, credits, fees, or finance charges. In addition, Rewards Points will not be awarded
for purchases involving gambling, criminal activity or any other use of the card that directly or
indirectly violates any present or future state or federal laws or regulations. We reserve the right
to determine in our sole discretion whether a particular purchase is a qualifying purchase.
The Credit Union reserves the right to revise these Terms and Conditions at any time, and
modify, suspend or terminate the Rewards Program. Changes will be posted on the Credit
Union’s website. Rewards Points levels required for Sporting Style Gift Cards may be changed
at any time with or without prior notice. All Sporting Style Gift Cards are subject to availability.

SPORTING STYLE GIFT CARD REDEMPTION
You will receive three Rewards Points for each dollar of net purchases and up to five points on
other select qualified purchases. Please allow 6 to 8 weeks for rewards points to post to your
Blue Card Rewards account. Rewards Points may be redeemed for Sporting Style Gift Cards
and other Sporting KC related merchandise. Gift Cards will be sent by mail to the account
address maintained by the Credit Union within 10 business days. Other items will be shipped
and delivered as disclosed when the redemption is made. All redemptions are final. Blue Card
Rewards/Gift Cards are subject to change. Gift Cards may be redeemed online for Sporting KC®
merchandise by visiting this website: shop.sportingkc.com. The accountholder is responsible for
all taxes. You will continue to earn Rewards Points as long as your account remains current and
in good standing. Rewards Points will expire four years from the date they are awarded,
however, if your account is closed or not in good standing at any point in time, all points
accumulated up to that point will be forfeited. In the event that the Credit Union discontinues the
program, you will have 180 days from the date of notification to redeem your Rewards Points.
Any Blue Card Rewards, including Gift Cards, offered under this Rewards Program are void
where prohibited by law. Rewards Points have no cash value.
Mazuma Credit Union makes no representations or warranties of any kind, expressed or
implied, with respect to the Rewards Program, Gift Cards or Sporting KC® and specifically
disclaims any implied warranties of merchantability or fitness for a particular purpose. The
Credit Union shall not be liable for any expense, loss, claim or damage in any way arising from
or related to the Rewards Program, Gift Cards or Sporting KC®.

MISCELLANEOUS
The Credit Union reserves the right, in its sole discretion, to suspend, cancel or modify the
Rewards Program at any time and for any reason and without prior notice. The Credit Union
reserves the right, in its sole discretion, to add, delete, change or revise the Terms and
Conditions of the Sporting Blue Card Rewards Program including, but not limited to,
qualifications for participation in the Program, qualifying purchases, and the manner in which
Rewards Points are earned or redeemed.
Your participation in the Rewards Program may be suspended or terminated in the Credit
Union’s sole discretion for suspected or actual fraud, violations of law or violations of these
Terms and Conditions.
You can review your Rewards Points balance at any time by logging into your Mazuma Online
Banking account and clicking the link to the Blue Card Rewards web site. You agree to review
your Sporting Blue Card Rewards Account and report any errors promptly to the Credit Union,
and in no event later than 60 days after the error occurred.
Sporting KC® is not affiliated with Mazuma Credit Union. Sporting KC® and Mazuma Credit
Union copyrights, trademarks and service marks are used by permission, and remain the
intellectual property of their respective owners, and may not be used by any other person or
entity without the prior written consent of their owners.

